<html>
<title> - 2020 CENSUS: OUTCOMES OF THE 2016 SITE TESTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]











              2020 CENSUS: OUTCOMES OF THE 2016 SITE TESTS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 16, 2016

                               __________

                           Serial No. 114-169

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-171 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
    






























              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
THOMAS MASSIE, Kentucky              BRENDA L. LAWRENCE, Michigan
MARK MEADOWS, North Carolina         TED LIEU, California
RON DeSANTIS, Florida                BONNIE WATSON COLEMAN, New Jersey
MICK MULVANEY, South Carolina        STACEY E. PLASKETT, Virgin Islands
KEN BUCK, Colorado                   MARK DeSAULNIER, California
MARK WALKER, North Carolina          BRENDAN F. BOYLE, Pennsylvania
ROD BLUM, Iowa                       PETER WELCH, Vermont
JODY B. HICE, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
STEVE RUSSELL, Oklahoma
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
 Jeffrey Post, Government Operations Subcommittee Deputy Staff Director
                       Patrick Hartobey, Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director

                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts

























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 16, 2016................................     1

                               WITNESSES

The Hon. John H. Thompson, Director, U.S. Census Bureau
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. Kevin B. Smith, Associate Director for Information Technology 
  and Chief Information Officer, U.S. Census Bureau
    Oral Statement...............................................    29
    Written Statement............................................    31
Mr. David Powner, Director of Information Technology Management 
  Issues, U.S. Government Accountability Office
    Oral Statement...............................................    42
    Written Statement............................................    44
Mr. Robert Goldenkoff, Director, Strategic Issues--Census Issues, 
  U.S. Government Accountability Office
    Oral Statement...............................................    61
    Written Statement............................................    63


 
              2020 CENSUS: OUTCOMES OF THE 2016 SITE TESTS

                              ----------                              


                      Wednesday, November 16, 2016

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:11 a.m., in 
Room 2247, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the subcommittee] presiding.
    Present: Representatives Meadows, Buck, Carter, Grothman, 
Connolly, Maloney, and Norton.
    Mr. Meadows. The Subcommittee on Government Operations will 
come to order. And, without objection, the chair is authorized 
to declare a recess at any time.
    Before I go into my opening statement, Director Thompson, I 
want to just say thank you to you and your team who not only 
made a special effort to come to my district with regards to 
some of the onsite testing. It was very illuminating. And I 
just want to say thank you for making the special effort to 
help me understand that process. So kudos to you and your staff 
in a very busy time for making the time to help us be better 
informed.
    The 2020 Census will be unlike any others in 2020-plus 
years since the first census happened in 1790, and for the 
first time the Census Bureau will be using technology ranging 
from mobile devices to Internet self-response to carry out one 
of the most important tasks for the Federal Government, 
counting the people of this great Nation. The use of this new 
technology and modernization has the potential to create 
tremendous cost savings for the American taxpayer.
    Along with this great promise, however, the Bureau's effort 
also can carry significant risk. For example, if the testing 
and delivery schedules are not met or is strictly adhered to, 
instead of the cost savings, there could be cost overruns. 
We've seen that in previous censuses, so this is not our first 
rodeo as we look at this.
    In prior hearings, and actually in prior meetings that 
we've had, the committee has identified a number of areas where 
the Bureau is at risk of cost and schedule overruns, perhaps 
incomplete census data, and information security breaches or 
the potential for that.
    The time is running out to address those. I think we all 
realize that we're on a critical time mission. And, again, I 
want to acknowledge the fact that as we have come together, 
seen those issues, it is critically important that we keep all 
hands on deck.
    I believe that even though we may have a difference of 
opinions in terms of the severity of the challenges that face 
us, that we're committed to do that. And I want to acknowledge 
that the last meeting that we had here, which was not a public 
hearing where many of you here, we had frank discussions and 
concerns, and yet at the same time, I think we're able to go 
apart to say that we're committed to making this thing happen. 
And I'm optimistic that we will be able to do that.
    But only by correcting some of the issues that we have will 
we be able to make sure that the new administration and the 
2020 Census will be placed in a scenario for success. Decisions 
that we're making now, quite frankly, will have an impact for 
the next 4 years. And so it is critically important that we 
make good decisions as we start to implement a number of these 
areas.
    I have some serious concerns, as Director Thompson knows, 
with the Bureau's contracting schedule for the 2020 systems, as 
well as their commitment to making those 2020 commitments the 
highest priority for those programs.
    The Bureau's modernization effort entails a design, 
building, delivery, and implementation system of some 52 
different systems. Any time that you have that many moving 
parts, it can be troubling. Each of these systems should be 
field tested in their final form before being rolled out in the 
2020 Census.
    Today, obviously, we'll hear from the GAO that with 8 
months left before the final testing, half of those 50 systems 
to be tested in 2018 will either be delivered after the start 
of the testing or, worse yet, their delivery date is still 
unknown. The fact that there is even a suggestion that IT 
products will go untested is unacceptable, and no system or 
product, not a single one, can be allowed to be used to collect 
and process the American public's sensitive personal 
information without first being tested.
    Despite the need to test more than 50 systems, the Bureau 
recently announced the cancellation of the 2017 field testing 
operations. And so I look forward to hearing on how we can 
maybe combine some of those as we start to address some of the 
issues, whether it be testing in a different mode, or how we 
make sure that there is that integrity.
    The Bureau has claimed that budgetary constraints are 
preventing them from this testing; however, when I start to 
look at some of the numbers, I guess my concern is that it 
seems like the Bureau has opted on its own to kind of reduce 
the 2020 budget by more than $120 million, which would have an 
impact now. And so I would like to get some greater clarity on 
why that decision was made, what we need to do there.
    No other program in the Bureau's portfolio is being cut 
anywhere near that amount. And so I guess, to give you an 
example, the American Community Survey, which is probably the 
single thing we get the most complaints about as it relates to 
the census because of the nature of the questions, that program 
is only being reduced by a mere $3 million.
    So I want to see where our priorities are as we start to 
look at it, Director. The 2020 program should be the highest 
priority program. It should not be shouldering roughly 75 
percent of any anticipated budget reductions.
    I'd like to thank all of the witnesses for being here 
today. I believe that we will be able to make some real 
progress.
    And with that, I'll recognize the ranking member, my good 
friend, Gerry Connolly. And congratulations on your reelection. 
You did that in spite the fact that I endorsed you.
    Mr. Connolly. We have a mutual pact. If it helps him, I'll 
campaign against him or for him back home, and he's offered to 
do the same for me.
    That you, Mr. Meadows, and congratulations to you as well.
    I think this is an important hearing to examine the Census 
Bureau's 2016 test for the all-important 2020 Decennial Census. 
The decennial census is a cornerstone of our constitutional 
system. It is used to apportion seats here in the House, to 
define State legislative districts, and determine school 
district assignments.
    Census data helps the private sector make sound investments 
by identifying unsaturated or emerging growth markets and 
developing business plans and loan applications. The data also 
helps Congress make decisions in how to fund special education 
grants, for example, or provide adoption assistance, or create 
small business development centers, rural business enterprise 
grants, and other programs. Very important to the U.S. economy 
and its growth.
    The 2020 Decennial Census will be the first to embrace 
information-collection technology on a broad scale. According 
to the Bureau's calculations, the Bureau's information 
technology plans will make this census leaner and result in 
$5.2 billion in savings compared to the last census.
    But those savings can only be effectuated if the Bureau's 
plans are fully implemented and operate without interruption, 
and if the Bureau is able to accomplish its constitutional 
mandate and accurately count all residents.
    The Government Accountability Office--I'm glad to see Mr. 
Powner here again, thank you--is advising Congress that it has 
concerns. They tell us that 25 percent of the households in a 
recent field test could not be contacted by Bureau enumerators 
even after six attempts. For example, large multi-unit 
buildings and locked or gated communities were problematic, as 
one might imagine, as enumerators were unable to enter the 
property.
    The Bureau's software also made it difficult for 
enumerators to leave notes, which would help indicate what time 
of day a dwelling's resident was likely to be present or not. 
The Bureau also had difficulty in creating enumerated canvas 
lists from administrative data, and enumerators had training 
difficulties which resulted in diminished performance.
    Our goal in this hearing is to ensure that the Bureau 
answers the concerns of the GAO and learns the lessons from its 
fields tests and shares them with us and fixes problems in 
advance of the census itself.
    This subcommittee has a role to play in a successful 
census, and we're committed to a successful census on a 
bipartisan basis. We must ensure the Bureau continues to make 
progress in the next 3 years, improve its policies, procedures, 
and technology based on information gained in those field 
tests, and test and retest those improvements before the 2020 
Census.
    In October, I joined Chairman Chaffetz and Ranking Member 
Cummings and Chairman Meadows of this subcommittee in inquiring 
on the status of the critical IT decisions related to the 2020 
Census that had yet to be made and the Bureau's overall 
preparedness for the census. We were pleased to receive a quick 
response and will continue to work with the Bureau to ensure 
that the CEDCaP initiative stays on schedule.
    The Bureau has been making progress. It recently hired a 
new chief information officer, Mr. Kevin Smith, who is with us 
today. The presence of Mr. Smith in an office that has been 
without a permanent leader for nearly a year is, finally, a 
welcome sign. While he has only been in the position for a few 
months, I look forward to hearing the steps he's taken to 
improve the Bureau's IT infrastructure and how he proposes to 
implement FITARA, also known as Connolly-Issa.
    Mr. Meadows. I agree.
    Mr. Connolly. Again, I want to thank you, Chairman Meadows, 
for calling this hearing and keeping us focused on the 
importance of this subject matter.
    With that, I yield back.
    Mr. Meadows. I thank the gentleman.
    And I will hold the record open for 5 legislative days for 
any member who would like to submit a written statement.
    We'll now recognize our panel of witnesses. I'm pleased to 
welcome the Honorable John Thompson, director of the U.S. 
Census Bureau.
    Welcome, Director Thompson.
    Mr. Kevin Smith, the chief information officer at the U.S. 
Census Bureau.
    Welcome, Mr. Smith.
    Mr. David Powner, director of information technology 
management issues at the U.S. Government Accountability Office.
    Welcome.
    And Mr. Robert Goldenkoff, director of strategic issues and 
census issues at the U.S. Government Accountability Office.
    Welcome.
    And welcome to you all. Pursuant to committee rules, all 
witnesses will be sworn in before they testify. So if you'll 
please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony that you 
are about to give will be the truth, the whole truth, and 
nothing but the truth?
    Let the record reflect that the witnesses answered in the 
affirmative.
    You may take your seat. And in order to allow time for 
discussion, I would ask that your oral testimony be limited to 
5 minutes. However, your entire written testimony will be made 
part of the record.
    And so, Director Thompson, we'll now recognize you for 5 
minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF JOHN H. THOMPSON

    Mr. Thompson. Good morning, Chairman Meadows, Ranking 
Member Connolly, and members of the subcommittee. I appreciate 
the opportunity to update you on the 2020 Census.
    In June, I testified that we were on track to execute a 
census that is innovative, efficient, and accurate. Since then, 
I've appreciated the many opportunities to engage further with 
you, Chairman Meadows, as well as other committee members and 
committee staff. We've continued to make progress in our 
preparations, and I am proud to report that we remain on track 
and on schedule.
    The last time I testified, we discussed the Census Bureau's 
Integrated Master Schedule for the 2020 Census and we provided 
the committee with a copy of that schedule. Our operational 
plan for 2020 includes 350 design decisions. As of right now, 
259 of them, or 74 percent, have been made, and we are on 
schedule for making the rest.
    We update the GAO on the schedule every month, and I would 
be happy to provide those updates to you and your subcommittee 
as well to further assure you that we are ready and on time 
with those systems and operations.
    As described in my written testimony for the record, the 
Census Bureau is pursuing four key innovation areas that will 
make it easier for people to participate and save taxpayers 
more than $5 billion. And census tests are critical as we work 
toward to implement these innovation areas. We learn what works 
and what doesn't, and we make adjustments.
    Most recently, we completed our 2016 Census Test in Harris 
County, Texas, and in Los Angeles County, California. We tested 
core census operations, including how we process, store, and 
protect the data we receive from respondents.
    As I said, we learned many lessons from the 2016 Census 
Test, including several notable successes and insights, such as 
higher response rates by using a letter as the first reminder 
and using language services in brochures and inserts. As in 
past census tests, we successfully matched the large majority 
of respondent addresses to our address frame with non-ID 
processing methods.
    We expanded language support services to include Chinese 
and Korean. We used administrative records and third-party data 
to reduce the nonresponse follow-up work load for vacant and 
occupied addresses.
    We implemented staffing ratios that increase the number of 
enumerators per supervisor. These staffing ratios were 
successful due to increased automation. We worked with the U.S. 
Postal Service to reduce our nonresponse workload by gaining a 
better understanding of mail processing, including reasons why 
mail can't be delivered.
    And finally, we improved optimized assignments and routing 
for our enumerators and our use of smartphones for data 
collection.
    Just as important as the successes, we identified areas 
that need improvement. These areas, which are described in 
detail in my testimony, include better training for 
enumerators, better procedures for enumerators in multi-unit 
structures, enhancements due to proxy interview process, and 
continued development of closeout procedures for data-
collection operations.
    We are already implementing what we learned from the 2016 
Census Test and will continue to do so to prepare for the 2018 
End-to-End Test.
    In addition, we began testing our address canvassing 
procedures and systems in parts of Buncombe County, North 
Carolina, and St. Louis, Missouri. And thank you to Chairman 
Meadows for observing our field operations earlier this month 
in Buncombe County. We're testing methodologies and data 
sources to detect new residential developments to show 
neighborhoods that remain unchanged since the 2010 Census.
    In addition to the address canvassing test, the Census 
Bureau had been planning field testing operations for 2017. Due 
to funding uncertainty, on October 18, the Census Bureau was 
forced to announce that we're stopping work on two planned 
field tests in 2017 in Puerto Rico and on two tribal 
reservations. Stopping these tests is not an ideal outcome for 
the operational risk of the 2018 End-to-End Test and the 2020 
Census, but overall it's the best option given the funding 
uncertainty for fiscal year 2017.
    We will continue to prioritize our funding resources and 
activities that are critical to preparing for the 2018 End-to-
End Census Test.
    I should also note, and as described in my written 
testimony, we've awarded four significant contracts relating to 
the census. I'd be happy to discuss these later.
    In the last three months, we've met key milestones for the 
2020 Census, and we remain on track and on time. I thank the 
subcommittee for your continued support and interest in our 
work.
    I am confident the Census Bureau will achieve its goal of 
counting everyone in America once, only once, and in the right 
place in 2020. And I look forward to answering your questions. 
Thank you.
    [Prepared statement of Mr. Thompson follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
      
    Mr. Meadows. Thank you, Director Thompson. And thank you 
for keeping the dogs away from both of us when we were out 
there doing the field test.
    Mr. Smith, you are recognized for 5 minutes.

                  STATEMENT OF KEVIN B. SMITH

    Mr. Smith. Chairman Meadows, Ranking Member Connolly, and 
members of the subcommittee, thank you for the opportunity to 
testify this morning. I am pleased to update you on our ongoing 
work to make the 2020 Census a success.
    I began my role as chief information officer at the Census 
Bureau over 4 months ago. Since then I've gained a deep 
appreciation of the steps the Bureau has taken to introduce 
innovations into their operation processes and supporting 
technology to make the 2020 Census more effective and efficient 
than ever before.
    The Census Bureau has taken positive steps to innovate with 
technology, not invent technology, by using industry available 
solutions wherever possible.
    I have been involved in developing first-of-their-kind 
industry solutions and large-scale technology modernization 
efforts in both government and in the private sector. I'm 
excited and honored to lead the IT team that will help deliver 
the most automated census ever.
    I have spent much of my time at the Census Bureau reviewing 
the IT organization and the Bureau's technology and governance. 
We have a talented staff of IT professionals, and the 
foundation for a successful census is in place. I am 
particularly pleased with the start of our new CEDCaP chief 
security engineer in July. He has a rich background in 
information security, a strong history of private sector 
experience, and a wealth of knowledge about securing federal 
information systems.
    I'd like to focus today on two key areas, our cybersecurity 
and the progress of the Census Enterprise Data Collection and 
Processing program, known as CEDCaP. We take the task of 
ensuring the integrity and security of our systems and data 
against the evolving landscape of cybersecurity threats very 
seriously. Our cybersecurity approach will ensure that 
individuals have limited, appropriate access to 2020 Census 
data. We'll keep the census systems running through possible 
cyber threats by taking informed actions in redundant systems 
with layers, isolation, views, and encryption whenever and 
wherever possible.
    We're committed to partnering with industry and other 
Federal agencies to leverage their cybersecurity services and 
to create as strong a cybersecurity posture as possible. In 
particular, we have engaged the Department of Homeland Security 
to review our design and security architecture for the 2020 
Census systems. In addition, we have reached out to the 
National Security Agency and other offices within the 
Department of Commerce for assistance in threat identification 
and management.
    During the 2020 Census, we'll focus on phishing threats 
through respondents and Census Bureau employees. For 
respondents, we will work closely with our Integrated 
Communications Contract to address the threat of phishing both 
before and during the 2020 Census.
    Within the Census Bureau, we conducted regular 
cybersecurity training and phishing evaluations to educate our 
employees. We have also worked with DHS to evaluate and test 
our procedures for phishing. We will use an industry-leading 
solution to detect rogue and suspect emails and Web sites 
impersonating the Census Bureau. And finally, we will leverage 
the security protections of our cloud service providers for 
additional layers of security.
    The CEDCaP program has been underway since 2015. Much work 
remains. In May, the Census Bureau announced the decision to 
unify the functions of a number of existing systems onto a 
single platform-based COTS solution. The transition to the COTS 
platform for the 2020 Census began in June.
    The CEDCaP systems are built using an agile development 
approach that allows us to work closely with the decennial 
business product owners. This approach ensures that we deliver 
the right level of technology incrementally and make the most 
effective improvements for the census.
    We are hard at work to deliver the new version of the 
previously tested Internet self-response capability in the 2017 
Census Test. Overall, for the 2018 End-to-End Test, half of the 
systems needed are already in use and going through 
enhancements. Over half of the needed systems will be ready for 
system-integration testing within the next 6 months.
    Looking ahead, I believe the measures we are taking will 
prepare us to react to any difficulty, including the threat of 
cyber attacks. Preserving the integrity and security of our 
systems and data is a top priority.
    First, we will protect the data we collect. And, second, we 
will sustain secure data-collection services so that 
respondents may confidently respond to the 2020 Census. To do 
that, we will layer our technology in ways that isolate data 
and systems from each other with the views that let us take 
immediate action when a threat is detected.
    This approach puts in place the majority of the technical 
security controls that we need to protect the data and systems 
from threats. This allows for systems to inherit best practice 
technical security within the framework while we continue to 
develop the systems.
    GAO recently expressed the importance of engaging service 
providers and the IT vendor community to help mitigate risks, 
and I completely agree with their recommendation.
    With the continued hard work from our team and 
congressional support, I am confident the Census Bureau can 
achieve our objectives. I look forward to discussing other 
aspects of our planning for the 2020 Census with you. I am 
grateful for this opportunity to testify before the 
subcommittee, and I am pleased to answer any questions you 
have. Thank you.
    [Prepared statement of Mr. Smith follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
  
    Mr. Meadows. Thank you, Mr. Smith.
    Mr. Powner, you are recognized for 5 minutes.

                   STATEMENT OF DAVID POWNER

    Mr. Powner. Chairman Meadows, Ranking Member Connolly, and 
members of the subcommittee, thank you for inviting us to 
testify on the Bureau's plans to deliver tests and secure key 
technologies for the 2020 Census.
    Clearly, utilizing an Internet response, mobile devices for 
enumeration follow-up, and cloud solutions are important steps 
to improving our Nation's response rates and securing citizens' 
data. However, the Bureau has a history of poor IT delivery, 
and many of the broader IT initiatives this committee has 
focused on during this Congress are major challenges at the 
Bureau, including appropriate CIO authority, delivering 
incrementally, having the right governance and accountability 
over IT acquisitions, and securing systems and information.
    This morning, I'd like to focus on what needs to be done to 
deliver and secure these technologies.
    First, integrate IT deliverables with the 2020 schedule. My 
colleague, Carol Harris, made this point repeatedly before this 
committee at prior hearings, and this is still clearly a major 
issue since several of the IT schedules are still being 
developed. Clearly, schedule risk is a bright red risk at this 
point.
    Oversee delivery and readiness of the 50-plus systems. The 
Bureau needs to deliver about 50 systems to be included in the 
2018 End-to-End Test starting in August of next year. I have a 
figure in my written statement that shows half of those systems 
are to be delivered after the start of the End-to-End Test or 
that they lack firm delivery dates.
    Clearly, the 12 projects associated with CEDCaP, including 
the Internet response capability, mobile devices, and the 
centralized operations component are critical systems.
    A key question with CEDCaP commercial products is the 
amount of customization that the Bureau plans. Modifying these 
products will have cost and schedule implications that we plan 
to monitor closely.
    Next, they need to oversee integration activities. An 
integration contractor recently began work in October. The 
contractor is responsible for delivering and implementing a 
decennial system of systems. The staffing plan here includes 
hundreds of contractors and a cost of about $900 million. The 
contractor acknowledges the key risks are schedule, 
scalability, and security.
    Currently, they are working on detailed schedules. It is 
very important for the Bureau to oversee this contractor's work 
and the associated costs. Currently, the Bureau is expanding 
its program management office by about 40 staff to do so. We 
think this is very important, but also very late in the game to 
be doing so.
    Next, they need to make decisions on infrastructure. The 
integration contractor is working on an analysis of 
infrastructure needs. Decisions need to be made on data centers 
and security operation centers.
    Next, they need to improve IT governance. Overseeing the 
delivery of the 12 CEDCaP systems, the additional 40 systems, 
and integration and testing activities is extremely important. 
The Bureau has several governing boards to do this, including 
the CEDCaP in 2020, executive steering committees.
    Most of this is the direct responsibility of the 2020 
office, not the CIO. This is another instance, Mr. Chairman, 
where the delivery of key systems is not under the direct 
authority of the CIO.
    Mr. Smith, though, to his credit, has assured us that he 
can manage risks associated with IT through these governing 
bodies. We hope he is right, and we will be continuing to 
monitor this for the committee.
    To do so, we'll need meeting minutes of these governance 
bodies, and even better yet, we'd like to be observers at key 
governance meetings.
    To the Bureau's credit, we like agile development, 
commercial products, and using an integration contractor that 
does include subcontractors with prior census experience.
    However, Mr. Chairman, I'd like to point to a hearing you 
and Chairman Hurd, along with Ranking Member Kelly, held this 
summer on 18F and the digital service teams, and I wonder why 
these private sector experts are not engaged with the decennial 
IT deliverables. Clearly, the Bureau could use help in this 
area.
    Turning to security. The Bureau needs to continue its 
diligence in this area, since it has been the target of recent 
data breaches; although, it has been reported that no 
personally identifiable information was compromised. Moving 
forward, we have ongoing work that will focus on the Bureau 
minimizing the threat of phishing, securing 300 mobile devices, 
securing cloud services, and properly configuring the 2020 
systems.
    A key oversight area for this committee will be the 
authority to test and operate the many systems associated with 
the decennial.
    In conclusion, there is a lot to do over the next 9 months 
leading to the End-to-End Test, and not everything is 
completely decided or defined. Decisions, delivery, 
integration, and testing needs to occur and needs to be closely 
monitored.
    In addition, the IT costs of the decennial needs much more 
transparency. Right now, the total IT cost for the decennial is 
not clear, but we will be getting you solid numbers with our 
upcoming review. Look forward to your questions.
    [Prepared statement of Mr. Powner follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
       
    Mr. Meadows. Thank you so much.
    Mr. Goldenkoff, you are recognized for 5 minutes.

                 STATEMENT OF ROBERT GOLDENKOFF

    Mr. Goldenkoff. Chairman Meadows, Ranking Member Connolly, 
and members of the subcommittee, thank you for the opportunity 
to be here today to discuss the Census Bureau's preparations 
for the 2020 Census.
    As you know, to help control costs and maintain the 
accuracy of the next enumeration, the Bureau is planning to 
employ new procedures and technology that have not been used to 
a large degree in prior decennials, if at all. While the Bureau 
estimates that its planned innovations can save as much as $5.2 
billion compared to a repeat of the approach it used in 2020, 
those same innovations also introduce new risks.
    As a result, it will be important to thoroughly test the 
operations plan for 2020 to help ensure that they will produce 
needed cost savings, function in concert with other census 
operations, and work at the scale needed for the national head 
count. The Bureau's failure to fully test some key operations 
prior to the 2010 Census was a key factor that led us to 
designate the 2010 Decennial a GAO high-risk area.
    In my remarks today, I will provide some preliminary 
observations on two such tests occurring this year: the 
Bureau's test of nonresponse follow-up operations in Los 
Angeles County, California, and Harris County, Texas, and the 
ongoing test of address canvassing procedures in Buncombe 
County, North Carolina, and in St. Louis, Missouri. I will also 
discuss some key lessons learned from the 2010 Census that can 
be applied to the Bureau's preparations for 2020.
    The 2016 test of nonresponse follow-up operations where 
enumerators visited households that did not respond to the 
census generally proceeded according to the Bureau's 
operational plans. However, preliminary data at both the Harris 
County and L.A. Test sites indicate that the Bureau experienced 
a large number of non-interviews, as much as 30 percent of the 
workload, where either no or insufficient data were collected. 
Bureau officials are not certain why there were so many non-
interviews and are researching the potential causes.
    Going forward, it will be important for the Bureau to 
identify and address the factors that contributed to the non-
interview rate, as they could have implications for the cost 
and accuracy of the final population count.
    Our preliminary observations also revealed that refining 
some key enumeration procedures could produce additional 
efficiencies by enabling the Bureau to be more responsive to 
situations enumerators encounter on the ground. These 
refinements include providing more flexible access to recently 
closed, incomplete cases, improving communication with managers 
of multi-unit properties to better coordinate enumerators' 
visits, and improving the ability to update the automated case 
management system with information on the best time of day to 
visit households.
    Meanwhile, in Buncombe County, North Carolina, and in St. 
Louis, Missouri, the Bureau is testing new procedures for 
building its master address list for 2020. The Bureau plans to 
employ aerial imagery, street imagery, and address file data 
from State, local, and tribal partners to update address and 
map information. The goal is to limit the more expensive and 
traditional door-to-door address canvassing only to those areas 
most in need of updating, such as areas with recent housing 
growth. The Bureau anticipates that by using this new or 
targeted approach, just 25 percent of housing units will 
require field canvassing.
    While this initiative shows promise for controlling cost, 
the Bureau has identified a series of risks that could affect 
its cost or quality. These risks include, for example, locating 
hidden housing units, such as converted garages and basements, 
and monitoring changes in housing stocks.
    In summary, while the Bureau has made considerable progress 
in developing more cost-effective enumeration procedures, a 
number of risks and uncertainties remain and key lessons 
learned in planning for the 2010 head count can enhance the 
Bureau's readiness for 2020.
    Based on our prior work, these lessons include ensuring key 
census activities are fully tested, developing and managing the 
enumeration on a basis of reliable cost estimates, and 
sustaining workforce planning efforts to ensure the Bureau has 
the optimal mix of skills to cost effectively conduct the 
enumeration.
    Chairman Meadows, Ranking Member Connolly, this concludes 
my remarks. I would be pleased to respond to any questions that 
you or other members of the subcommittee might have.
    [Prepared statement of Mr. Goldenkoff follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
       
    Mr. Meadows. Thank you. Thank you all for your testimony.
    So the chair recognize himself for a series of questions.
    So, Mr. Smith, let me come directly to you, since it seems 
that a lot of this is following in your area. And Mr. Powner 
talked about your assurances with regards to a couple of areas 
where you don't have the direct authority but believe that you 
can deliver.
    How do you do that when things go wrong? And I guess my 
concern is, is when everything is going right, there's enough 
people around to take credit. When they go wrong, you know, 
then all of a sudden there is a lot of finger pointing. And so 
should we address that now to make sure that you have the 
ultimate authority as the GAO would encourage you to have?
    Mr. Smith. Chairman Meadows, thank you for the question.
    What I have in place to assure from a FATARA standpoint and 
also assure from an execution standpoint that the census will 
be successful is governance to make sure the acquisitions are 
done appropriately, as well as governance on all of the 
technology solutions being proposed from the infrastructure 
support to make sure they're done the right way and they are 
actually done with the least amount of risk from a technology 
standpoint.
    By putting these in place, I am comfortable that I am able 
to give the business, decennial as well as from the mission 
standpoint, the Census Bureau director and others, the right 
level of risk that potential solutions may have and we make the 
right decisions to move forward.
    I think----
    Mr. Meadows. All right. Let me interrupt you. What is the 
right level of risk? Because that's a qualitative statement, 
and I want to make sure we are all on the same sheet of music.
    Mr. Smith. Absolutely. My first and foremost importance is 
to make sure that the systems are ultimately secure, the data 
is confidential, integral, and the systems are available. There 
are some potential reasons why you would want to do some of 
those solutions a little bit different for the 2020 based on 
the scale and the size of the data coming in. To me, these are 
not large-level risks as long as we have a large-level view of 
what it means from the security aspect and the ability to 
recover the systems.
    Mr. Meadows. Well, then let's go ahead and talk about that 
a little bit. Because I guess one of my concerns is it seems 
like half of the systems--and maybe I misheard what you said--
but half of the systems will not actually be implemented before 
we start end-to-end testing. Is that correct?
    Mr. Smith. That is not completely accurate. Some of the 
tentative dates that were not in the master--the IIP plan, 
those are to be delivered as well. They are all tentatively 
scheduled before August. Sixty percent of the systems are to be 
delivered before August.
    Mr. Meadows. So only 40 percent of them will not be 
implemented for end-to-end testing. So I was wrong by 10 
percent.
    Mr. Smith. Uh-huh. But some of the ones----
    Mr. Meadows. All right. So let me get to the crux of the 
matter. The big one, fraud prevention, according to what you've 
given us, it doesn't look like you plan to deliver that until 
March of 2020. And so I'm looking at this, and it's very 
troubling, because we've got a 2020 go-live estimate, and 
you've got fraud detection systems, the delivery is March 20 of 
2020, and then we've got the other one of real-time non-ID 
processing, which says, basically, is this the real person that 
is coming in and actually filling it out, and you've got a 
delivery of March 20 of 2020 on that one as well.
    How in the world are you going to test something and plan 
to go live a month or 2 after that with those two critical 
components? I mean, I see that as the crux of why we're here 
today. And your delivery schedule would suggest that we're 
going to do all the testing and then throw in fraud prevention 
a month or 2 before we actually go live?
    Mr. Smith. Chairman Meadows, I completely agree with the 
concern. I will have to go look back at the tests, the system 
lists we delivered, and the dates to see how they would say 
2020.
    Mr. Thompson. May I?
    Mr. Smith. You can.
    Mr. Thompson. Congressman, if I could just say something. 
So we are continually working on understanding the cyber risks 
of our fraud protection. And so we will run something in the 
2018 End-to-End Test. We will continue to improve upon that 
using knowledge that comes in about what are potential vehicles 
for fraud, and we want to keep that open quite a bit so we keep 
updating the system.
    But let me assure you, we plan an extensive program where 
we will reinterview a sample of every response we get to the 
census, both non-ID and ID'ed, and use that information to 
determine the quality of the responses in the census.
    Mr. Meadows. So when do we deliver those systems? Because, 
we can't deliver them, Director, you know we can't deliver them 
in March of 2020 and expect to have any kind of integrity and 
confidence in those, even if we may be doing some type of 
testing now.
    Mr. Smith. And, Chairman Meadows, my answer to the delivery 
date that was there, there is obviously a delivery date that is 
going to be done for 2018. I need to get back to the group with 
what that date is. Our intentions are to have some of the 
system in place to do some testing in 2018.
    Mr. Meadows. All right. So do I have your commitment that 
the delivery of the fraud prevention and the non-ID will be 
done before we do end-to-end testing, you know, pure and 
simple?
    Mr. Smith. Yes, sir, you do.
    Mr. Meadows. Okay. And so you will get back to this 
committee and with Mr. Powner in terms of that?
    Is that something that you can live with, Mr. Powner?
    Mr. Powner. Yeah. I think your questions, Chairman, are 
right on. I mean, clearly, there are delivery dates, but 
there's also delivery dates, there's some integration to key 
systems that should occur prior to the end-to-end test.
    I think the thing is, if you look at this realistically, 
everything be done, all 52 systems by August of 2017? Likely 
not. Likely not. And if it's not done----
    Mr. Meadows. Yeah. Of course, he modified that. He said 
that 40 percent of them won't be done.
    Mr. Powner. If it's not done, let's look at it 
realistically, if it's not done, then there's ways to test it 
by other means. I mean, this may be not ideal with the 
operations, but that's why it's so important that these 
systems, we need to really dog the delivery, the integration, 
and the results of the tests.
    So if everything doesn't go smoothly with the end-to-end 
test, we still do have some time to test not ideally, but we 
could still test leading up to the actual decennial. But I 
think what we need is real transparency on delivery dates, 
costs, and all that stuff so we can all effectively work 
together.
    Mr. Smith and I have had some really good conversations 
about this. I was around for the 2010 Decennial. I testified in 
front of this committee multiple times when the handhelds 
failed. There's a history of not having strong governance over 
these things. I do think the integration contract could help 
them, but also, too, the integration contractor, we're putting 
a lot of responsibility on them. It's close to a billion-
contract, and we need to ensure that there's real delivery 
coming from that contractor, too. I imagine you're going to be 
talking to that contractor down the road.
    Mr. Meadows. Sooner than later, yes. And I think as we look 
at that, I appreciate you acknowledging the back-and-forth, 
because I do believe that we've had that, these key things. 
We're going to find a lot of stuff that is troubling, but we 
have a very, very short window. I mean, it's even shorter than 
6 months. Some of the decisions that have to be made, as we've 
talked about, they need to be made, you know, in the next 60 to 
90 days, and so as we look at that.
    So let me finish up with one, and then I'll recognize the 
ranking member.
    Director Thompson, in your opening testimony you talked 
about a lot of the testing and a lot of the things that are 
going on. So help me really take all of that testimony and, I 
guess, fine-tune it. With the test results that you've seen to 
date and where we are, how do you feel like that will compare 
to the actual results of the census when it comes in? I mean, 
what are the anomalies, I guess, is what I'm saying?
    Mr. Thompson. Thank you, Chairman Meadows.
    As GAO testified, we found in our work in the 2016 test 
that we needed to work on our training procedures for our 
enumerators more. We need to do more work on preparing to 
enumerate in multi-unit structures. And we need to do more work 
on what we refer to as closeout procedures and what Mr. 
Goldenkoff was discussing as more of an unresolved. But we need 
to work on that, we learned that, and we have processes in 
place to get that set for the 2018 End-to-End Test.
    And, again, we will have the same results coming out of 
that test. We'll share the results with the GAO, we'll share 
the results with you, so we all know where we are at that time.
    Mr. Meadows. So if a number of 10 says we're all the way 
there, where are we today based on the test results that you've 
seen?
    Mr. Thompson. I'm just smiling, because the last time I did 
probabilities, I got in a lot of trouble. But I would give it 
an eight.
    Mr. Meadows. Okay. Thank you, Director.
    And the chair recognizes the gentlewoman from New York, 
Mrs. Maloney.
    Mrs. Maloney. Thank you. And thank all the panelists.
    And I share the chairman's concern about security for the 
2020 Census, cybersecurity. As we know, in 2015 the cyber 
breach of the Office of Personnel Management resulted in the 
theft of personal identifiable information of more than 21 
million Americans. And the 2020 Census will create a repository 
vastly larger than what the hackers stole from OPM.
    So the security of the census information is of truly 
utmost concern by individuals, and they want to be assured that 
it's there before they even participate. And there is no 
question that encryption is a key component of information 
security.
    But, Mr. Smith, I understand that some 2020 Decennial 
computers for the census are too old to use encryption. Is that 
correct?
    Mr. Smith. Congresswoman, I appreciate the question.
    I have to go look back to see which ones are too old to use 
encryption. There's encryption in transit and there's 
encryption at rest from data.
    I will assure you from the standpoint from the security 
aspect that the approach we are taking to layer and isolate the 
security parameters in the network actually make these legacy 
systems, if they are too old for encryption, they are well 
behind and inside of the census data centers, that the ability 
to interact with these systems is limited from the outside 
world.
    From the data-collection aspect, when people are responding 
to the Internet site, we're taking very specific and 
intentional steps to make sure that that data is well protected 
and safeguarded and secure, which these systems you mentioned, 
that wouldn't apply to if they're ``too old,'' quote, to go 
through encryption. I'd have to look at that, though.
    Mrs. Maloney. Well, I think it would be important to get 
back to the chairman a listing of how many of these computers 
and their systems are too old for encryption.
    Mr. Smith, what concerns does that raise, and how will they 
be addressed?
    Director Powner's GAO ``Better Management of 
Interdependencies Between Programs Supporting the 2020 Census 
is Needed'' report highlighted the fact that the 2020 Census 
will be the first one in which respondents are heavily 
encouraged to respond by the Internet. And GAO has previously 
reported that malicious email attacks are among the growing 
cyber threats facing the Federal Government.
    So, Mr. Smith and Director Powner, your comments?
    Mr. Smith. So from the malicious emails aspect, what we are 
doing is we are going to engage industry-leading solutions to 
detect rogue emails, detect Web sites that are impersonating 
the census, and put some specific things within our system so 
the public can identify what is a census system they should be 
applying to in interacting with the Internet self-response.
    We're also going to be taking steps with the communications 
contract we have signed with the decennial to go through and 
educate the public on what they should be doing for phishing, 
what they should be doing against these attacks to get in front 
of it as much as possible both before the 2020 Census occurs 
and regularly through the 2020 Census.
    Mrs. Maloney. And Director Powner, adding to my question, 
does the 2020 Census' reliance on the Internet create an 
additional risk of respondents falling victim to attacks?
    Mr. Powner. Yeah. Clearly, we're concerned about phishing 
attacks. Also, too, if you look at it holistically, you have to 
also secure the mobile devices. We have cloud services we're 
likely going to be procuring, we need to ensure there is the 
appropriate level of security with the cloud. And then 
configuring all the 2020 systems, these 50 systems that we 
talked about, we're looking at that for you right now. We're 
going to continue to report back to the committee on that. But 
clearly, it's a concern.
    I do think folks at the Census Bureau, it's a high priority 
for them. When we talked to the contractors, there, too, it's 
also one of the high-risk areas. So there's a heavy focus on 
that right now. But we'll continue to track that for you.
    Mrs. Maloney. Okay. And, Mr. Smith, is the Bureau using the 
services of outside organizations to help implement and test 
cybersecurity?
    Mr. Smith. Yes, we are. We're using outside resources, 
Department of Homeland Security. We're also using industry-
leading companies to help evaluate our security architecture, 
as well as test the vulnerabilities and test the penetration, 
which basically means attempt to break through the architecture 
we've designed for the 2020 Census systems.
    Mrs. Maloney. Well, Director Powner, based on what you've 
heard today, how confident are you that the Census Bureau and 
the Department of Commerce are implementing sufficient levels 
of cybersecurity for the 2020 Census? And, you know, your 
report showed that there are many intelligence challenges 
because of the new technologies.
    Mr. Powner. Yeah. Clearly, what we will be looking at, I 
think the penetration tests that Mr. Smith mentioned, we want 
to look at how complete they are, what the results are.
    And I mentioned in my oral statement, too, I think a key 
oversight area for this committee is the authority to operate 
signature on all these systems. You know, clearly if you look 
back on healthcare.gov, I testified on that, that was a key 
issue. There was an authority to operate, but there were 
vulnerabilities associated with the authority to operate that 
some would argue weren't acceptable. And I think that will be a 
key oversight item for this committee.
    Mrs. Maloney. And, Mr. Smith, what assurances can you give 
that the Bureau's IT progress is appropriate? I mean, there are 
new, tremendous challenges in IT. Last month, the Bureau 
provided the committee with information relating to its 
remaining IT decisions, and we were told that there are 48 IT-
related decisions left. Is that correct? So how would you 
characterize the Bureau's progress, or lack thereof, of meeting 
its deadlines?
    Mr. Smith. Thank you for the question.
    There are approximately 40 IT decisions left from the list. 
These are decisions that we're going to make as we learn from 
the operational tests, things that need to be implemented.
    I can assure the subcommittee from the standpoint of how 
we're securing the technology enables us to actually develop 
the technology iteratively and agilely, which is recommended by 
the Federal Government as far as approaching large-scale 
systems of this nature. And I can assure the subcommittee that 
by developing things agilely, we are going to know how things 
work and how secure they are along the way as we are developing 
it. We are not going to wait till the end to do the testing and 
do the security of these systems.
    Mrs. Maloney. Any other comments?
    My time has expired. Thank you.
    Mr. Meadows. I thank the gentlewoman.
    The chair recognizes the gentleman from Wisconsin, Mr. 
Grothman, for 5 minutes.
    Mr. Grothman. Thank you.
    A couple of questions where, I guess, the Census Bureau 
gets in the news. There's been a lot of discussion in recent 
times in the newspapers about undocumented or illegal 
immigrants, and I think the number is to a certain extent based 
on Census Bureau data. Do you guys generate the numbers of 
people who are not citizens in this country?
    Mr. Thompson? Director Thompson?
    Mr. Thompson. Thank you. We don't produce a number of the 
undocumented people in the country. I mean, we do produce data 
that researchers in the field use to make estimates of that, 
but that's not a Census Bureau product.
    Mr. Grothman. Okay. So when you give us the total people in 
the country, you have no idea whether they are citizens or not? 
That is not something you concern yourself with?
    Mr. Thompson. Thank you, Congressman.
    When we produce our estimates from the decennial census, it 
includes everyone in the country, and we don't distinguish 
between those that are documented and not documented, and we 
don't ask.
    Mr. Grothman. Okay. So we have no idea whether they are a 
student here on a visa or a short-term visa or a person who is 
here illegally, you have no idea?
    You said you make an estimate, though. How do you make that 
estimate?
    Mr. Thompson. I'd have to get back to you on that.
    Mr. Grothman. You have no idea?
    Mr. Thompson. I'm not a demographer. But we do have a lot 
of good demographers at the Census Bureau.
    Mr. Grothman. Any other guys know?
    And as I understand it, in banding about this 11 million 
figure for 15 years or something, I'm told it's based on census 
data. Do you any of you guys know how they generate that 
number? It's used by a lot of politicians. I just wondered. Why 
don't you guys get back to us on that.
    Mr. Grothman. Okay. The next question is, you have a 
tendency to generate statistics by what we'd call race. Is that 
right?
    Mr. Thompson. We do. We do provide statistics by race.
    Mr. Grothman. And how is that determined, the race of 
those? They all self-identified, or how would you define? Given 
that in today's world we have more and more I guess what you'd 
call biracial people, how do you generate those numbers? First 
of all, give me the breakdown on the different races that you 
try to identify.
    Mr. Thompson. So we follow the guidance of the Office of 
Management and Budget and establish the racial classifications 
that are used in the United States. And this includes major 
categories, such as African American, such as White, such as 
Asian, such as Native Hawaiians and Pacific Islanders and 
American Indians and Alaska Natives.
    Within that, because we have a decennial census, we collect 
more detailed information. We also collect the category on the 
decennial census other race.
    Again, all this follows the guidance that the Office of 
Management and Budget establishes for assigning racial 
classifications in the United States.
    Mr. Grothman. We're dealing with kind of inflammatory 
stuff. I would think over time more and more Americans are not 
100 percent something.
    Mr. Thompson. Congressman, let me also say that, starting 
in 1997, the OMB directed that respondents be given the option 
of responding to more than one race. So respondents can 
identify with any particular race or combination of races that 
they feel describes them.
    Mr. Grothman. Okay. Our President, how should he fill out 
that form?
    Mr. Thompson. That's up to our President. I mean, 
seriously, it's self-response. So we don't--we present the 
categories, we present the information to our respondents, and 
then they identify with what they believe describes them.
    Mr. Grothman. Okay. So the figures are largely no guidance. 
Okay. I could be one-eighth American Indian, if I put down 
American Indian, that's what I am, right, according to guys?
    Mr. Thompson. That would be your census response.
    Mr. Grothman. Okay.
    Now I'll give a question to Mr. Goldenkoff.
    The GAO found last time 25 percent of your cases resulted 
in non-interviews after six visits. So somebody went there six 
times, six attempts, nobody gave you the information. Is that 
right? Are those figures right?
    Mr. Goldenkoff. Yeah. And just to clarify, I believe it was 
30 percent at the Texas test site and 20 percent at the Los 
Angeles test site.
    Mr. Grothman. Okay. Does this concern you?
    Mr. Goldenkoff. It does concern the GAO, and for several 
reasons. One, it concerns us because the Bureau doesn't know 
the factors that contributed to the high levels of non-
interviews. And then also, of course, that information would 
need to be imputed statistically on those missing housing 
units.
    So there are a couple of factors that could have influenced 
those high non-interview rates. It could have been, for 
example, the enumerators not following certain procedures they 
were supposed to if they couldn't get an interview. They were 
supposed to go to a neighbor or somebody nearby. But then this 
is where Director Thompson was talking about where the training 
needed to be improved. Perhaps that the enumerators didn't 
recognize the importance of going to a proxy. There are some 
other factors that could have influenced that as well.
    But it is concerning to us, and that hopefully that the 
Bureau will be able to, you know, have data from this 2016 test 
to get a better understanding of what was behind those high 
non-interview rates.
    Mr. Grothman. Okay. I can see I've exceeded my 5 minutes, 
so we'll have to, when we go to conference later this week, 
we'll have to tell all our colleagues they missed an exciting 
hearing.
    Mr. Meadows. I thank the gentleman from Wisconsin. It's 
duly noted. I appreciate the gentleman's questions.
    We'll recognize the gentlewoman from the District of 
Columbia, Ms. Eleanor Holmes Norton, for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. This is 
always an important hearing. It's important. It's timely. I 
would say it's timely. I hope it's in time.
    And the enigma, of course, of the census is not whether you 
have one drop of black blood, but of how to count people and to 
give them the opportunity. I indicate that because there was a 
time in our country when that was, if not of the census, a way 
in which some States decided who is African American in our 
country. So the only thing a diverse democracy can do is to ask 
you, ``Who in the hell are you?'' and to have you fill it out.
    I note that some people are using these apps and are 
finding that they are of many different ethnicities. But at the 
same time, they probably answer and many of them are answering 
``other.''
    I also want to say for the record that census is in the 
Constitution. At the time of the census, most people weren't 
even citizens, because they had arrived here and we were 
getting people coming in such large numbers. So it was 
important from the beginning just to know how many people were 
here. And from that, of course, scientifically, we can now--we 
now have a way to find who is documented and who is not.
    Ms. Norton. But I want to ask questions about this what I 
am calling the enigma of the minorities, which always vex the 
census. I want to turn to this Harris County field test. So 
that even using new technology, approximately 30 percent of the 
households--I think this is for you, Mr. Goldenkoff--
approximately 30 percent of the households in the test could 
not be contacted after six good faith attempts.
    My first question is, compared to how many attempts did it 
take for the 70 percent that could be contacted?
    Mr. Goldenkoff. Well, that varied. It was between one and 
six.
    Ms. Norton. Yeah, well, obviously, it was between one and 
six.
    Mr. Goldenkoff. Right. And, specifically, I don't know.
    Ms. Norton. I would like you to report back to this 
committee how many attempts does it take on the average to get 
a response. Because I think six is a good number. So I would 
like to have some explanation of these results.
    Mr. Goldenkoff, how is this problem to be fixed? I mean, 
those people are out there. Surely they can't go uncounted.
    Mr. Goldenkoff. Well, the first way of fixing it is getting 
a better understanding of what was causing it. And we were out 
there, I personally was out in Los Angeles, we had other GAOers 
out in L.A. And also in Texas. And, you know, based on our 
observations, as well as our conversations with Census 
officials, there are a couple of things that could be behind 
it.
    First, just the nature of the test itself may have high 
non-interview rates, and that is because it is not an actual 
census, and so the public may not be as aware that the census 
was being conducted as they would during an actual census just 
because during the actual census enumerators are under more 
time pressure; the Census Bureau also conducts a lot more 
outreach and promotion. So it could have been an awareness 
issue, people just don't want to answer their doors.
    Another reason could be the devices themselves, that, you 
know, the way those hand-held devices worked, that after an 
attempt was made, they couldn't reopen a case. And so if 
someone came home and the enumerator was still in the area--and 
we did see this happen on a number of cases--they couldn't 
reopen that case to enumerate that person.
    Ms. Norton. They couldn't reopen the case?
    Mr. Goldenkoff. Because it's just the way the hand-held 
devices worked, that there were certain--there are some reasons 
for that, you know, and I think this is just a more generic 
issue of being able to better balance the efficiencies that you 
get with the centralized control of an automated case 
management system with the flexibility that you get with 
enumerators on the ground being able to adapt procedures as 
they see fit. And it's a balancing act.
    And so maybe, and this is something that we have been 
discussing with the Census Bureau, is how to, through the 
business rules and how the devices are managed, to allow for a 
little bit more flexibility in the procedures.
    Ms. Norton. Could I just ask, some of these seem important 
hypotheses. Are they being acted on? They seem to be a warning 
sign.
    Mr. Thompson. Congresswoman, those rates are unacceptable 
for the 2020 Census. We have the information that will be 
available to make sure that we can go back to those households 
as many times as it takes to get a response. And we will do 
that, because we are not going to leave that much of the 
population----
    Ms. Norton. I understand that. That is important to here. 
And documenting what of the hypotheses you just heard was the 
cause would be important for the future as well.
    Director Goldenkoff, is there any way to know--there should 
be a way to know--what percentage of those who did not use the 
Internet response option in the two tests were minorities?
    Mr. Goldenkoff. Who did not use the Internet? So basically, 
if I understand your question correctly, you are asking 
minorities who responded other than the Internet through 
means----
    Ms. Norton. Who did not use the Internet response, who did 
not use the Internet response option in the two tests. I am 
talking about this test in this Harris County field test.
    Mr. Goldenkoff. Right.
    Ms. Norton. How many were minorities?
    Mr. Goldenkoff. That would be something that the Bureau 
could determine, I imagine.
    Mr. Thompson. Congresswoman, we have that information. But 
let me say that for 2020 we aren't offering the Internet as the 
only response option. So in 2020, for the first time, people 
can call up and give their interview over the phone.
    Also, we do know that there are a number of people, a 
number of communities where they don't want to respond by the 
Internet. So we will be actually mailing out a questionnaire 
directly to about 20 percent of the households in the United 
States based on information we have about what kind of method 
they would prefer to respond.
    Ms. Norton. Well, the new technology may have gotten in the 
way here of getting an accurate count of people, particularly 
undocumented people or people who are leery of responding to 
people who open the door, I mean. Yet you did the field test 
using new technology. Was it to see whether new technology 
would be more efficient, would work?
    Mr. Thompson. So our philosophy----
    Ms. Norton. You didn't use enumerators in this field test.
    Mr. Thompson. We used enumerators, certainly.
    Ms. Norton. You did?
    Mr. Thompson. Of course.
    Ms. Norton. In this field test, the Harris County field 
test?
    Mr. Thompson. We certainly did. We certainly did. Now, like 
I said, if someone wants to respond by paper, eventually they 
will get a paper questionnaire, or they might get one right at 
the start.
    Ms. Norton. Do you imagine that among those that it took 
six attempts and still you couldn't respond, that they probably 
need to have some face-to-face or paper enumeration?
    Mr. Thompson. The ones that took six were six face-to-face 
attempts. We went to the door and knocked on the door and 
nobody was--see that nobody was home or the door wouldn't be 
opened. These were six attempts after they received four----
    Ms. Norton. That is troubling.
    Mr. Thompson. --contacts by the mail to respond.
    Ms. Norton. Very troubling. I don't know if it's when 
people go. Do people go only in the daytime? People may be, I 
hope, away at work.
    Mr. Goldenkoff.
    Mr. Goldenkoff. Yeah. I think that is one of the points 
that we made in my statement, is that being able to leverage 
the knowledge that the enumerators see on the ground. And, for 
example, one of the things that we saw time and time again was 
that enumerators would start their assignments about the middle 
of the afternoon, for example, but a lot of people aren't home. 
But then at the end of the day they would be finishing up 
around 5 o'clock when people were returning home, they could 
not reopen those cases. We saw this in multi-unit dwellings.
    Ms. Norton. This is a huge error.
    Mr. Goldenkoff. Well, you know, this is something that, you 
know, this is what you learn by testing.
    Ms. Norton. Well, my God, we have been doing this--we have 
had, you know, we either have had two-parent families where 
both go out to work or single-parent families where we hope 
somebody is working for a very long time, and the notion that 
we don't know that people aren't home in the middle of the day.
    Mr. Thompson. Congresswoman, if I might.
    Ms. Norton. Yes, sir.
    Mr. Thompson. In previous censuses, what we would do is we 
would give an enumerator a stack of questionnaires and we would 
tell them to go out and get those questionnaires enumerated. We 
had no idea of what time they were going out or when they were 
going or where they were going.
    Now we do have the ability to know when they are going to a 
house, and we have the ability to tell them they can't go 
during the day and they have to go in the evening. So we do 
have that ability now that we didn't have before.
    Ms. Norton. This is very important. You know, I would 
hazard a guess--I do have one important question, if I can go 
before this--I would hazard a guess that most Americans are not 
home in the middle of the day if they are fortunate enough to 
have a job or if they have children and they are in school. I 
don't know why enumerators wouldn't begin later in the day if 
we want an accurate census.
    Mr. Goldenkoff. Well, in many cases they did. It all comes 
down to local knowledge, because we also saw examples where 
people worked the night shift, and the best time to get them 
was the middle of the day.
    But one of the things, and this is where the need for that 
flexibility comes in, is that even though they could not 
leverage in a very centralized way, you know, an enumerator 
could write in ``come back at 6 p.m. tomorrow,'' it was not 
managed centrally in a very good way. And that is what needs to 
be improved. I think there were procedures to do that, but it 
just didn't happen as often as it should have.
    Ms. Norton. And I see the need for a central management of 
the system along with the flexibility you were speaking of.
    I do have to ask about what I believe is really a 
constitutional question, and that is prison gerrymandering, a 
huge distortion of the count because, for example, big cities 
will rarely have a prison in the middle of the city, and so it 
will be in another area, less populated.
    This has gone to court. Recent cases have held that prison 
gerrymandering violates the Constitution. I hope we are finally 
going to settle this. But the Bureau recently put out a request 
for comment on its residence criteria, and here I am going to 
quote what you said: ``The usual residence for counting 
purposes would be the prison in which the inmate is held.''
    Now, some States have moved forward to correct this huge 
distortion that can affect everything from where we count for 
Members of Congress, not to mention where resources go. So you 
are overcompensating where the resources may in fact not be 
going to schools, for example, in those schools and prisons.
    I don't see how we can have it both ways, and want to know 
are we going to settle this question or are you looking forward 
to the census facing really a huge constitutional question 
because there are a number of cases and they will be on their 
way up. What are you doing to settle this question before the 
census?
    Mr. Meadows. The gentlewoman's time has expired. You can 
answer very quickly if you have a response to that.
    Mr. Thompson. I do have a response.
    So we issued--and this was in the interests of being open, 
this is the first time we have done this--we issued our 
proposed criteria for determining residence in a Federal 
Register notice at the end of June. We gave a 30-day comment 
period. We extended the 30-day comment period based on requests 
from the committee. We have gotten over 78,000 comments, 
responses to that Federal Register notice, and we are now in 
the process of evaluating the very thoughtful comments that we 
got so that we can issue a final determination.
    Ms. Norton. Well, let's hope you take into account the 
recent litigation. You cannot have censuses where some States 
have corrected this, other States haven't, and then go to the 
American people and say we have an accurate census. You can't 
have two ways of counting the same population based on what 
State they are in.
    Thank you very much, Mr. Chairman.
    Mr. Meadows. I thank the gentlewoman for her interest in 
making sure that everybody is properly counted.
    So let me kind of close out by asking a few questions to 
make sure that we are all marching to the same drumbeat, 
because I think we are getting closer. And so, Mr. Smith, let 
me start with you.
    In October, we talked about doing, I guess it was a single 
operating system for deploying on mobile devices as part of 
that working group. And I think I read that indeed that is 
where you are going with that. Was that an accurate report or 
is it--was that correct?
    Mr. Smith. Chairman Meadows, I recall that we are going 
through to determine the mobile devices that are going to come 
in through a contract, and based on the operating systems the 
mobile device may choose to provide as a bid. The platform we 
are using to develop for the enumerators to produce the 
application can work on either mobile platform. There are very, 
very, very small changes beneath working on an Android or 
working on an iOS or working on other mobile device platforms. 
So the system itself can be----
    Mr. Meadows. So for a non-techie, is that a ``yes'' to my 
question or a ``no'' to my question? I mean, is it a single 
operating system or not?
    Mr. Smith. No.
    Mr. Meadows. So the reports were wrong.
    Mr. Smith. From the mobile device aspect----
    Mr. Meadows. I think the reports basically said that you 
were going to that. And so----
    Mr. Thompson. Congressman, we have just released our 
request for procurement for our device as a service contract. 
It came out yesterday. And we are going to carefully examine 
the solutions that the vendors propose. And it may very well be 
that some vendors will propose only one operating system.
    Mr. Meadows. I understand what they are going to. What are 
you going to require? I mean, they will propose a lot of other 
things.
    I guess here was my concern, is as we get to these 
different devices, and I talked to you about having one 
operating system on one and another on another, you are going 
to create the potential conflict there. So I thought we had 
made progress, and I was about to say hurray for Mr. Smith, 
thank you for listening. And what I am hearing is that that may 
not be accurate.
    Mr. Smith. Yes, sir. The system itself is portable. It is 
like running Microsoft Word on an Apple computer or running it 
on a Microsoft computer. That version of the word processing 
software works on both.
    I am comfortable with picking this industry leader to help 
produce the application, that their application works on 
Android, works on iOS, and will be able to work with whatever 
comes back from the device as a service.
    Mr. Meadows. I guess it was an article by Phil Goldstein in 
FedTech. Were you all familiar with that? Maybe we follow this 
stuff closer than you do. It said Census Bureau plans to go 
mobile and rationalize their device portfolios. And it just 
talked about a device footprint. So perhaps we can clear it up.
    I still have great concern if we have different operating 
systems. So the October meeting, that concern still stays 
there. So if you will just let me know as the procurement, 
Director Thompson, gets a little bit, what you are going to 
anticipate from our vendors.
    Mr. Powner, let me come to you, because some of these 
timeframes, and according to Mr. Smith we are talking about 40 
percent of those systems not being in place for end-to-end 
testing, is it possible for you to identify what systems could 
be descoped and would be appropriate to be descoped if the 
mission is too great?
    Mr. Powner. I think the key question on the descoping, and 
this is something we have talked to Mr. Smith about, is 
understanding what the critical path is. Not all those 50 
systems are on the critical path. So there is a critical path.
    I mean, sure enough, the Internet response and the mobile 
devices and the centralized, there are some things that are 
very big and important, right? We know those are on the 
critical path. But identifying everything on the critical path 
and then looking at potential descoping, you don't want to 
descope items on the critical path.
    Right now, with the integration contractor and the 
integration test, I think that's a TBD, everything that really 
is on the critical path. So that's a key question about what is 
on that critical path from an integration point of view.
    Mr. Meadows. So would you agree with that, Mr. Smith?
    Mr. Smith. Yes, sir.
    Mr. Meadows. All right. So if you agree with that, then can 
you report back to this committee by the end of this year, and 
so I would say by December 31, with what I would call is a 
critical path analysis?
    Mr. Meadows. A is critical path, we have got it, these are 
must haves. B would be, yeah, it's critical, these are nice to 
haves. And C, it's not part of the critical path at all, so 
those would be subject to descoping, as Mr. Powner talked 
about.
    Mr. Smith. And, sir, I would like to also address in the 
conversation we will have with GAO, it comes down to the 
context of the systems, too. As Mr. Powner discussed, data 
collection is utmost of importance, that the systems are 
prioritized and being done. Some of the things that are done 
after August are things that can by timeframe be done after 
August, and some of them are enhancements to existing systems, 
like paper collection. So the context of the systems will also 
play----
    Mr. Meadows. Well, and what I will ask on that A, B, and C, 
if you will put in parentheses a T next to it, if it is a 
timetable initiative that makes it perhaps less critical in 
terms of our end-to-end testing or where it is. Because I need 
to know what your thinking is on this, is, well, this is not 
critical because we can deal with it in November of 2019 versus 
this is just not critical. Does that make sense?
    Mr. Smith. Yes, it does.
    Mr. Meadows. Okay. All right.
    So Director Thompson, let me come back to you in terms of 
budgets on two different questions. So Ms. Holmes Norton was 
talking about going from Internet to paper and phone. If there 
is a disproportionate share of those that respond by phone or 
paper, you know, some other collection mode, how does that 
affect the budget and will that affect those numbers adversely 
in a significant way?
    Mr. Thompson. Right now we have estimates of getting about 
63.5 percent response in directly. It would cost more if more 
people preferred paper and more people preferred telephone. But 
it would certainly cost more if people did not self-respond at 
all and we had to go out and do the nonresponse follow-up.
    So we do plan for contingencies in 2020 to allow us to be 
able to both fund and process if we get more paper or if we get 
more telephone calls. So that is in our contingencies for the 
2020 Census.
    Mr. Meadows. So can you provide to this committee then, and 
I won't fine tune it too much, but for each 2 percent miss in 
that 63 percent response rate, financially what does that mean? 
All right? So we won't do 1 percent or half percent, but we 
will assume that you've----
    Mr. Thompson. So typically what we have done, and we will 
do this again, is we have said for every percent of increased 
nonresponse follow-up this is the marginal cost increase.
    Mr. Meadows. All right. So you will do it for every--I was 
going to give you a break there. Mr. Goldenkoff is sitting 
there shaking his head ``yes.'' So you will submit that to the 
committee so that we have an expectation from a budgetary 
standpoint.
    Mr. Thompson. Yes.
    Mr. Meadows. All right. So let me talk about priorities. 
And I mentioned it in my opening statement with the reduction 
in the 2020 budget and what that has done in priorities.
    Would you not agree that the most important aspect of your 
job is the 2020 Census, is the highest priority out of 
everything that you do?
    Mr. Thompson. I would agree, Congressman, it's a 
constitutional mandate. But having said that, when we made our 
decisions for the 2017 budget we looked at both making sure 
that we could deliver a census in 2020 that would be cost-
effective and innovative and on track, and at the same time 
maintain the important data we produce on the economy and give 
the Federal agencies the help----
    Mr. Meadows. I was trying to give you a softball, Director 
Thompson, and your response is a swing and a miss.
    Mr. Thompson. I was anticipating where you were going.
    Mr. Meadows. Yeah, I am sure that you were. So let me be 
very clear. If we are going to cut the budget, it doesn't need 
to be cut from the census, it needs to be cut from other areas 
of responsibility, from my perspective. And then you know you 
have got an open door, that I am willing to go to the 
appropriators and I am willing to advocate on your behalf.
    But if we are fully funding the other operations and we are 
not fully funding the 2020, I am not going to get calls on 
whether the other aspects of your job are done or not when they 
don't get fulfilled as much as I would the 2020 Census. Do you 
understand the importance of it from my standpoint and Ranking 
Member Connolly's standpoint?
    The egg on our face will not happen with some of the other, 
granted, very important aspects that you have under your 
jurisdiction. But whether they get done or not, I get a call 
from someone in the bureaucracy here saying why haven't we done 
it, moreso than I will if we don't have the 2020 Census done 
properly and effectively. Would you not agree with that?
    Mr. Thompson. I have got to say my number one goal is to do 
the 2020 Census in new and innovative ways, and effectively and 
accurately.
    Mr. Meadows. I agree with that. I guess here is what I am 
asking you to do, is if you were making budget concerns that 
impact the implementation of this critical process that we have 
all been talking about, where it is, you know, 75 percent--or a 
25 percent cut actually came out of the 2020 Census and very 
little cut came from some of the other responsibilities, and so 
I guess I question that decision in light of the priority that 
I deem the 2020 Census to be. And so let's have some further 
discussion, I will let you off a little easier on that.
    Mr. Thompson. Congressman, I appreciate your willingness to 
talk about a number of things on the census and your 
willingness to engage with us. It has been very refreshing to 
work with you. So thank you.
    Mr. Meadows. Well, if you will let me know--and I have told 
your staff this--from a budgetary standpoint, I am willing to 
camp out in the appropriators' lobbies until they want me to go 
home. How about that? And we will make sure that you get the 
resources, as long as you can get me those other numbers.
    So I want to just say thank you. Let me just tell you, to 
have two different missions for your agencies in terms of your 
primary focus, but having one mission in terms of making sure 
that this is successful, I am pleased with the back and forth 
and the tension that sometimes is there and acknowledged, but 
yet at the same time what I am hearing is real progress. And 
so, Director Thompson, I want to just acknowledge that in terms 
of your leadership and your willingness to do that.
    And so as we work going forward, I look forward to having 
each of you update us on a regular basis to make sure that we 
are making good progress.
    And with that being said, if there is no further business 
before the subcommittee, it stands adjourned.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
